fan

C@OCKLE

7 E-Mail Address:
L e 8 a 1 B rie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-276

CHRISTOPHER M. GIBSON,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2768 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 2nd day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ren] Keme 0. thao Ondiawh Chl

My Comm. Exp. September 5, 2023
Affiant 40161

 

Notary Public
